No. 20- 366
IN THE SUPREME COURT OF THE UNITED STATES
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL., APPELLANTS
v.
STATE OF NEW YORK, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY IN SUPPORT OF MOTION FOR EXPEDITED CONSIDERATION, via email and first-class mail, postage prepaid, this 29th day of September 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 29, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST:
20-366 DONALD J. TRUMP, ET AL. V. STATE OF NEW YORK, ET AL.
DALE E HO
ELIZABETH GREFRATH
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2693
DHO@ACLU.ORG
EGREFRATH@ACLU.ORG
BARBARA UNDERWOOD
SOLICITOR GENERAL
STEVEN C. WU
DEPUTY SOLICITOR GENERAL
JUDITH N. VALE
SENIOR ASSISTANT SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GNERAL
28 LIBERTY STREET
NEW YORK, NY 10005-1400
BARBARA.UNDERWOOD@AG.NY.GOV
STEVEN.WU@AG.NY.GOV
JUDITH.VALE@AG.NY.GOV
DAVID D. COLE
SARAH BRANNON
CERIDWEN CHERRY
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005

JOHN A FREEDMAN
ELISABETH THODORE
R. STANTON JONES
DANIEL F. JACOBSON
CHASE RAINES
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001

ANDREW I. SEGURA
EDGAR SALDIVAR
THOMAS BUSER-CLANCY
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF TEXAS
P.O. BOX 8306
HOUSTON, TX 77288
JULIA A. GOMEZ
PETER ELIASBERG
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 WEST 8TH STREET
LOS ANGELES, CA 90017

